                                Federal Register / Vol. 70, No. 235 / Thursday, December 8, 2005 / Notices                                              73015

       Dated: December 1, 2005.                                To ensure full and complete public                  DEPARTMENT OF HEALTH AND
     Elizabeth M. Duke,                                      comment from affected outside research                HUMAN SERVICES
     Administrator.                                          institutions and associations, we are
     [FR Doc. E5–7063 Filed 12–7–05; 8:45 am]                extending the public comment period                   National Institutes of Health
     BILLING CODE 4165–15–P                                  for this notice until January 30, 2006.
                                                                                                                   National Center for Research
                                                               Dated: December 5, 2005.                            Resources; Notice of Meeting
                                                             Joel Schaer,
     DEPARTMENT OF HEALTH AND                                                                                         Pursuant to section 10(d) of the
     HUMAN SERVICES                                          Regulations Officer.
                                                                                                                   Federal Advisory Committee Act, as
                                                             [FR Doc. E5–7086 Filed 12–7–05; 8:45 am]              amended (5 U.S.C. Appendix 2), notice
     Office of Inspector General                             BILLING CODE 4152–01–P                                is hereby given of a meeting of the
     Draft OIG Compliance Program                                                                                  National Advisory Research Resources
     Guidance for Recipients of PHS                                                                                Council.
                                                             DEPARTMENT OF HEALTH AND                                 The meeting will be open to the
     Research Awards—Extension of                            HUMAN SERVICES
     Comment Period                                                                                                public as indicated below, with
                                                                                                                   attendance limited to space available.
     AGENCY: Office of Inspector General                     National Institutes of Health                         Individuals who plan to attend and
     (OIG), HHS.                                                                                                   need special assistance, such as sign
     ACTION: Notice and comment period;
                                                             Notice of Establishment                               language interpretation or other
     extension of comment period.                                                                                  reasonable accommodations, should
                                                               Pursuant to the Federal Advisory
                                                                                                                   notify the Contact Person listed below
     SUMMARY:    On November 28, 2005, we                    Committee Act, as amended (5 U.S.C.
                                                                                                                   in advance of the meeting.
     published a notice and comment period                   Appendix 2), the Director, National                      The meeting will be closed to the
     seeking comments from interested                        Institutes of Health (NIH), announces                 public in accordance with the
     parties on draft compliance program                     the establishment of the Board of                     provisions set forth in sections
     guidance (CPG) developed by the Office                  Scientific Counselors, National Center                552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
     of Inspector General (OIG) for recipients               for Biotechnology Information, National               as amended. The grant applications
     of extramural research awards from the                  Library of Medicine (Board).                          and/or contact proposals and the
     National Institutes of Health and other                   The Board shall advise the Director,                discussions could disclose confidential
     agencies of the U.S. Public Health                      NIH; the Deputy Director for Intramural               trade secrets or commercial property
     Service (PHS) (70 FR 71312). To                         Research, NIH; the Director, National                 such as patentable material, and
     facilitate public comment, we are                       Library of Medicine (NLM); and the                    personal information concerning
     extending the comment period.                           Director, National Center for                         individuals associated with the grant
     DATES: To assure consideration, public                  Biotechnology Information (NCBI),                     applications and/or contract proposals,
     comments must be delivered to the                       concerning the intramural research and                the disclosure of which would
     address provided below by no later than                 development programs of the NCBI,                     constitute a clearly unwarranted
     5 p.m. on January 30, 2006.                             NLM through regularly scheduled visits                invasion of personal privacy.
     ADDRESSES: Please mail or deliver                       to the NLM for assessment of the                         Name of Committee: National Advisory
     written comments to the following                       research and development programs in                  Research Resources Council.
     address: Office of Inspector General,                   progress at the NCBI, assessments of                     Date: January 19, 2006.
     Department of Health and Human                          proposed programs and evaluation of                      Open: 8 a.m. to 12 p.m.
     Services, Attention: OIG–1026–CPG,                      the productivity and performance of                      Agenda: NCRR Director’s report and other
     Room 5246, Cohen Building, 330                          staff scientists.                                     business of the Council.
     Independence Avenue, SW.,                                                                                        Place: National Institutes of Health,
     Washington, DC, 20201.                                    The Board shall consist of 8 members,               Building 31, 31 Center Drive, Conference
        We do not accept comments by                         including the Chair, appointed by the                 Room 10, Bethesda, MD 20892.
     facsimile (FAX) transmissions. In                       Director, NIH, from authorities                          Closed: 1 p.m. to 5 p.m.
                                                             knowledgeable in the fields of health                    Agenda: To review and evaluate grant
     commenting, please refer to file code                                                                         applications and/or proposals.
     OIG–1026–CPG.                                           sciences, computer sciences,
                                                                                                                      Place: National Institutes of Health,
     FOR FURTHER INFORMATION CONTACT: Joel                   information sciences, information
                                                                                                                   Building 31, 31 Center Drive, Conference
     Schaer, Office of External Affairs, (202)               technology, library science, behavioral               Room 10, Bethesda, MD 20892.
     619–0089.                                               sciences, social sciences, educational                   Contact Person: Louise E. Ramm, PhD,
     SUPPLEMENTARY INFORMATION: Through
                                                             technology, communications                            Deputy Director, National Center for
     the draft CPG notice, OIG is setting forth              engineering, molecular biology,                       Research Resources, National Institutes of
                                                             biochemistry, genetics, structural                    Health, Building 31, Room 3B11, Bethesda,
     its general views on the value and                                                                            MD 20892, 301–496–6023.
     fundamental principles of compliance                    chemistry, mathematics, statistics, and
                                                             multi-media development and                              Any member of the public interested in
     programs for colleges and universities                                                                        presenting oral comments to the committee
     and other recipients of PHS awards for                  utilization.
                                                                                                                   may notify the Contact Person listed on this
     biomedical and behavioral research and                    Duration of this committee is                       notice at least 10 days in advance of the
     the specific elements that these award                  continuing unless formally determined                 meeting. Interested individuals and
     recipients should consider when                         by the Director, NIH that termination                 representatives of organizations may submit
     developing and implementing an                          would be in the best public interest.                 a letter of intent, a brief description of the
     effective compliance program. As with                                                                         organization represented, and a short
                                                               Dated: November 29, 2005.                           description of the oral presentation. Only one
     OIG’s earlier CPGs, the purpose of the                                                                        representative of an organization may be
                                                             Elias Zerhouni,
     draft guidance is to encourage the use of                                                                     allowed to present oral comments and if
     internal controls to effectively monitor                Director, National Institutes of Health.
                                                                                                                   accepted by the committee, presentations
     adherence to applicable statutes,                       [FR Doc. 05–23797 Filed 12–07–05; 8:45 am]            may be limited to five minutes. Both printed
     regulations, and program requirements.                  BILLING CODE 4140–01–M                                and electronic copies are requested for the



VerDate Aug<31>2005   16:29 Dec 07, 2005   Jkt 208001   PO 00000   Frm 00039   Fmt 4703   Sfmt 4703   E:\FR\FM\08DEN1.SGM   08DEN1
